                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 14-02396-212



                Healthcare Inspection 


Alleged Medication Cart Deficiencies 

       and Unsafe Medication 

      Administration Practices 

     Atlanta VA Medical Center 

         Decatur, Georgia 





July 16, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection to evaluate allegations of medication cart deficiencies, unsafe medication
administration practices, and insufficient leadership response to these problems at the
Atlanta VA Medical Center (facility), Decatur, GA. The purpose of the review was to
determine whether the allegations had merit.

During our unannounced site visit, we found that four out of five medication carts used
in the Community Living Center for medication pass had to remain plugged in due to
insufficient battery power, and some of the medication drawers on two of the carts did
not lock. Of the 14 carts in service on the 7th and 10th medical floors, 5 had to remain
plugged in due to short battery life and 6 had unsecurable medication drawers. The
computers and scanners were functional on all 19 medication carts observed, but we
noted that some computers were slow to operate or required multiple reboots.

We found that due to inadequate and/or non-functional medication carts, nurses have
had to administer medications late. We observed this condition during our site visit, and
17 of the 19 nurses we interviewed reported that they have administered medications
late because they did not have access to a working medication cart. In addition, nurses
did not consistently document the reason when medications were administered late.

We did not substantiate that due to inadequate and/or non-functional medication carts
nurses had to engage in unapproved workarounds; an approved alternate method was
available for nursing staff to follow when administering medications. We substantiated
that if nurses did not follow medication administration policies, they could be at risk
professionally.

We did not substantiate that leadership had not responded to complaints about the
issue. Facility leaders had responded, but according to facility leaders and other
managers with knowledge of the issues, purchasing and contracting processes to
procure new equipment and assure ongoing maintenance and repair of existing
equipment has been slow.

We recommended that the Facility Director ensure that nurses have access to an
adequate number of fully functioning medication carts to administer medications safely
and on time, and that nurses accurately document the reasons for late medication
administration. We also recommended that the Veterans Integrated Service Network
Director enhance processes to improve purchasing and contracting efficiency for patient
care equipment and items.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,




VA Office of Inspector General                                                                            i
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



pages 9–13 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                                JOHN D. DAIGH, JR., M.D.
                                                               Assistant Inspector General for
                                                                 Healthcare Inspections




VA Office of Inspector General                                                                           ii
    Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



                                                Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to evaluate allegations of medication cart deficiencies, unsafe medication
administration practices, and insufficient leadership response to these problems at the
Atlanta VA Medical Center (facility), Decatur, GA. The purpose of the review was to
determine whether the allegations had merit.

                                            Background 

The facility is a 405-bed teaching hospital that provides a broad range of emergency,
medical, surgical, long-term care, and mental health services. The facility has
273 hospital beds, 120 community living center (CLC) beds, and 12 psychiatric
residential rehabilitation beds. The facility is part of Veterans Integrated Service
Network (VISN) 7 and serves a veteran population of 87,416 unique patients.

Nursing staff administer medications to hospitalized patients via the bar code
medication administration (BCMA) system. In general, each medication comes in an
individual barcoded packet which pharmacy staff pre-load into individual patient
cassettes. The cassettes, with the patients’ names on front, are loaded into a
medication cart. Medication carts are equipped with computers, hand-held scanners (to
scan medication and wristband barcodes), and locking medication drawers that are all
powered by the cart’s battery. Medication carts should have sufficient battery life such
that the cart can be moved from patient room to patient room during medication pass.

When nurses administer medications, the general process involves:

1. Confirming the patient’s identity.
2. Scanning the patient’s wristband, which contains a unique bar code, to access the
   patient’s medication profile and information on the computer screen.
3. Scanning the bar code on each medication packet. 	BCMA automatically records the
   medication as “given.” Unless the nurse manually changes “given” to another option
   (see below), administration time is considered to be the time the patient’s wristband
   and medications are scanned.

If the nurse is unable to administer the medications, the nurse can choose one of
several options from a menu, including medication “missing,” “refused,” or “held.” The
process of scanning automatically documents the date and time the medications were
administered.1

Allegations

On January 28, 2014, the OIG received an e-mail from a complainant alleging that:

1
    Bar Code Medication Administration (BCMA) GUI User Manual, Version 3.0, Revised December 2013.




VA Office of Inspector General                                                                              1
    Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA


      1. Medication carts on CLC-3 do not have working computers, adequate space for
         medications, or sufficient battery life.

      2. As a result of inadequate and/or non-functional medication carts:

           a. 	 Medications are routinely administered up to 3 hours late.
           b. Nursing s	 taff have had to engage in “workarounds”2 to administer
                medications. One such workaround involved nurses printing out duplicate
                patient wristbands and scanning a wristband and all of that patient’s
                medications at once. Reportedly, nurses did this so that they would not have
                to keep walking back and forth between the patients’ rooms and the
                medication cart (which had to remain plugged in). When the wristbands and
                medications were all scanned at once within the 2-hour window, it would
                appear (via the BCMA system) as if the medications were administered on
                time, even if they were not.
           c. 	Nursing staff have been advised by management to enter “given” in the
                comments section, rather than the actual reason for the delay, when
                medications are administered late.
           d. Nursing staff who have had to engage in this type of workaround are at risk
                professionally.

      3. Leadership has not responded to complaints about the issue.

                                  Scope and Methodology 

We conducted an unannounced site visit April 7, 2014. Although the complaint related
specifically to CLC-3, we expanded our review to include two medical floors. During this
visit, we completed an inventory of medication carts on CLC-3 and on the 7th and
10th medical floors, and we interviewed nurses administering medications. We also
interviewed the facility director.

We reviewed relevant Veterans Health Administration (VHA) and facility policies, BCMA
medication administration and scanning failure reports, work orders, and purchase
orders. The facility had recently undergone unannounced Joint Commission (JC) and
Long Term Care Institute (LTCI) inspections, so we reviewed those reports and the
facility’s action plans related to this matter.

We interviewed the complainant; the CLC-3, 7th floor, and 10th floor nurse managers; the
Chief Nurse Executive, BCMA Coordinator, Nursing Automated Data Processing
Application Coordinator, and Chief of Pharmacy Service; a representative of Logistics
Service; the Deputy VISN Chief Information Officer; VISN contracting staff; and others
with knowledge about this issue.



2
    A workaround is a plan or method to circumvent a problem without eliminating it.




VA Office of Inspector General                                                                              2
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA


We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                           3
    Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



                                      Inspection Results 

Issue 1: Adequacy and Functionality of Medication Carts

We partially substantiated the allegation that medication carts on CLC-3 did not have
working computers, adequate secured space for medications, or sufficient battery life.
The complainant reported that, at times, nurses had to push two carts simultaneously
because one cart may have had a functional computer but no space for medications,
while the other cart may have had adequate space but could not be unplugged long
enough to complete medication pass due to short battery life.

During our site visit, we observed eight medication carts on CLC-3; three of the carts
were not in use that day.3 Of the five medication carts being used for medication pass,
four had to remain plugged in due to insufficient battery power. In addition, some of the
medication drawers on two of the carts did not lock.

We found similar conditions on the 7th and 10th medical floors. Of the 14 carts in service
during our observation, 5 had to remain plugged in due to short battery life and 6 had
unsecurable medication drawers.

The computers and scanners were functional on all 19 medication carts observed, but
we noted that some computers were slow to operate or required multiple reboots. All of
the carts had enough storage drawers to accommodate patient medications, but we
noted that in three cases, topical medications and infusion bags were left on top of the
medication carts rather than placed in the storage bins below. Six carts (two on CLC-3
and four on the 7th floor) were unsecured and unattended while nurses delivered
medications. We did not observe nurses using two carts to administer medications;
although, several nurses we interviewed told us that they had done this in the past.

Issue 2: Medication Administration Practices

Late Medications

We substantiated the allegation that the inadequate number and/or non-functional
status of medication carts resulted in delays in medication administration. VHA employs
a 2-hour “window” that allows nurses to administer medications from 1 hour before to
1 hour after the ordered time.4,5 Thus, a medication that is ordered to be administered
at 9:00 a.m. may be administered any time between 8:00 a.m. and 10:00 a.m. During
our site visit, we observed medications being administered late on all of the floors. In
addition to improperly functioning medication carts, other factors contributed to delays,
including nurses having to retrieve missing medications from the Pharmacy or Pyxis®6
3
  One cart was broken and two carts were not in use. 

4
  Some medications, like insulin and pain medications, are time-sensitive and the “window” does not apply. 

5
  Atlanta VA Medical Center Memorandum 118-9, Administration of Medication through Bar Code Medication 

Administration, January 30, 2014. 

6
  Pyxis® is an automated medication dispensing system that supports decentralized medication management.





VA Office of Inspector General                                                                                 4
    Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



machines and other patient care issues requiring nurses’ immediate attention.
Seventeen of the 19 nurses we interviewed reported that they have delivered
medications late because they did not have access to a working medication cart.

Workarounds

We did not substantiate the allegation that due to inadequate and/or non-functional
medication carts, nurses had to engage in workarounds.

Facility policy defines an alternate procedure to follow in cases when equipment is not
functioning properly. The alternate procedure is to use printed medication orders to
confirm the patient is given the correct medications. Completed orders are then
scanned into the electronic health record. While the alternate procedure may still result
in late medication administration, it assures that the right patient is receiving the right
medicine. The unapproved workaround cited in the allegations did not follow safe
medication administration policies and practices.

We observed that nurses followed approved protocols for medication administration.
We found one duplicate wristband in a medication cart, but the nurse denied knowing
anything about it, saying it may have been left from the previous night’s medication
pass. None of the nurses had patients’ barcode data affixed to the back of identification
badges as described by the complainant.

Because nursing staff knew they were being observed, it is unlikely they would have
engaged in an unapproved workaround during our site visit. For this reason, we
evaluated BCMA medication administration reports7 for March 2–3, 2014, for CLC-3
patients. We found no evidence of “batch” scanning (scanning multiple wristbands and
medications at once for delivery later) on those dates; although, we did note that some
morning medications had been administered as late as 1:30 p.m. with no accompanying
explanation as required by policy.

None of the 19 nurses we interviewed reported having used unapproved workarounds,
such as extra barcoded wristbands, to administer medications, nor did they report that
they were instructed by managers to document “given” in the BCMA system in advance
of administering medications. Several did report using approved alternate medication
administration procedures when functional medication carts were not available.

Professional Concerns

While we found no evidence that nurses used unapproved workarounds, we
substantiated that nursing staff could be at risk professionally if they did not follow
medication administration policies. Reportedly, several nurses were counseled when
nursing leadership discovered that they had not complied with medication administration
policies and practices. In the absence of other performance concerns, it is unlikely that
one administrative action such as this would place a nurse at professional risk.
7
    This review included only the morning medication pass.




VA Office of Inspector General                                                                              5
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



However, the repeated failure to follow policy could result in progressive discipline, up to
and including removal.

One of the 19 nurses expressed concern about being forced to use “bad systems” and
the potential impact on her nursing license. We did not hear similar concerns from the
other nurses we interviewed.

Issue 3: Leadership Response and Actions

While we confirmed ongoing problems with medication carts, we did not substantiate
the allegation that leadership had not responded to complaints about the issue. Actions
were being taken, but according to facility leaders and other managers with knowledge
of the matter, VA purchasing and contracting processes to procure new equipment and
assure ongoing maintenance and repair of existing equipment have been slow.

Further, several program offices across the VISN had responsibility for some aspects of
medication cart purchase and repair. Representatives from the program offices
explained the problems and barriers from their perspectives but had less understanding
of the requirements and barriers unique to the other offices. All four interviewees
reported that one or more of the other program offices were not following certain
procedures, which impacted their ability to do their work related to the medication cart
purchase and repair. One person we interviewed described it as a “relay race,” saying
that the offices were dependent on each other to achieve the goal. This interviewee
thought that communication, coordination, and mutual understanding were slowly
improving.

Status – Medication Carts

New cart purchases

In July 2013, the BCMA coordinator submitted a quote to the facility’s Logistics division
to purchase six medication carts.         The custom-order carts were received on
January 14, 2014. On February 13, the facility re-ordered 26 carts that were originally
requested in 2012, but the order was delayed due to lost paperwork. The carts were
received in two deliveries in early April 2014. In an effort to replace medication carts
facility-wide, 77 carts are now on order with an expected delivery date in
December 2014.

Old cart maintenance and repair

Medication carts require routine maintenance and periodic repair.                   On
September 30, 2012, the maintenance contract with the vendor expired, leaving a lapse
of several months until contracting staff could negotiate an extension. The problem
recurred on September 30, 2013, allegedly due to delayed and incomplete paperwork.
In late February 2014, the VISN paid for repairs to 22 medication carts, and the vendor
completed those repairs the following month. The vendor returned in April to repair
10 additional carts. VISN 7 contracting staff is in the process of renegotiating the
maintenance and repair contract.


VA Office of Inspector General                                                                           6
    Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



                                             Conclusions 

We partially substantiated that medication carts on CLC-3 did not have working
computers, adequate secured space for medications, or sufficient battery life. During
our site visit, we observed that four of five medication carts being used for medication
pass on CLC-3 had to remain plugged in due to insufficient battery life, and some of the
medication drawers on two of the carts did not lock. Of the 14 carts in service on the
7th and 10th medical floors, 5 had to remain plugged in due to short battery life and
6 had unsecurable medication drawers. The computers and scanners were functional
on all 19 medication carts observed, but we noted that some computers were slow to
operate or required multiple reboots.

We substantiated that due to inadequate and/or non-functional medication carts, nurses
have had to administer medications late. We observed this condition during our
unannounced site visit and 17 of the 19 nurses we interviewed reported that they have
delivered medications late because they did not have access to a working medication
cart.

We did not substantiate that due to inadequate and/or non-functional medication carts,
nurses had to engage in unapproved workarounds as the facility had a BCMA
contingency plan. During our observation, it appeared that nurses were following
protocols for medication administration. Because it was unlikely that nursing staff would
have engaged in an unapproved workaround while being observed, we evaluated
BCMA medication administration reports8 for March 2–3, 2014, for CLC-3 patients. We
found no evidence of “batch” scanning (scanning all the medications at once for
administration later) as described by the complainant. None of the 19 nurses we
interviewed reported having used unapproved workarounds to administer medications.
We did note during record review that the reason for late medication administration was
not always documented.

We substantiated that nursing staff could be at risk professionally if they did not follow
medication administration policies. We were told that a few nurses had been counseled
about improper medication administration practices.

While we confirmed ongoing problems with medication carts, we did not substantiate
that leadership had not responded to complaints about the issue. Actions were being
taken, but according to facility leaders and other knowledgeable managers, VA
purchasing and contracting processes to procure new equipment and ensure ongoing
maintenance and repair of existing equipment has been slow.




8
    This review included only the morning medication pass.




VA Office of Inspector General                                                                              7
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



                                  Recommendations 

1.      We recommended that the Facility Director ensure that an adequate number of
fully functioning medication carts are available for nurses to administer medications
safely and on time.

2.    We recommended that the Facility Director ensure that nurses document the
reasons for late medication administration.

3.    We recommended that the Veterans Integrated Service Network Director
enhance processes to improve purchasing and contracting efficiency for patient care
equipment and items.




VA Office of Inspector General                                                                           8
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA
                                                                                              Appendix A
                            VISN Director Comments


                Department of
                Veterans Affairs                                  Memorandum

        Date: June 11, 2014

        From: Director, VA Southeast Network (10N7)

        Subj: Draft Report—Healthcare Inspection—Alleged Medication Cart
        Deficiencies and Unsafe Medication Administration Practices, Atlanta VA
        Medical Center, Decatur, Georgia

          To: Director, Atlanta Office of Healthcare Inspections (54AT)
                Director, Management Review Service (VHA 10AR MRS OIG Hotline)


          1. I have reviewed the combined responses from VISN 7 program staff
             and the Atlanta medical center related to the subject OIG Draft
             Report. I concur with the stated action plans, as such VISN 7 staff
             will provide continued support and oversight to ensure that all actions
             are completed as indicated.

          2. If you have further questions please contact Robin Hindsman, QMO
             678-924-5723.



             (original signed by:)

             Charles E. Sepich, FACHE




VA Office of Inspector General                                                                           9
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



                         Comments to OIG’s Report
The following VISN Director’s comments are submitted in response to the
recommendations in the OIG report:

OIG Recommendations

Recommendation 3. We recommended that the Veterans Integrated Service Network
Director enhance processes to improve purchasing and contracting efficiency for patient
care equipment and items.

Concur

VISN response: The issue of Adequacy and Functionality of Medication Carts at the
Atlanta VA had risen to the VISN level and was being investigated as early as mid-
February. The VISN Chief Nursing Officer was working with the VISN Chief Logistics
Officer, VISN Contracting, VISN OIT and facility BCMA coordinators and Nurse Leaders
to understand the underlying issues, both technical (hardware, keyboards, IT
components), functional (age of carts, various cart type and components) and volume
(is the number adequate for the workload of the unit). As a result of this work, VISN 7
has produced the following outcomes, which will address Recommendation 3:

Target Date: October 10, 2014

Completed an Emergency BCMA Cart needs assessment, which determined the need
to purchase 114 BCMA Carts in FY ‘14, to replace aged and incompetent BCMA carts
at each facility. It should be noted that Atlanta completed an emergency purchase for
77 BCMA Carts simultaneously, to address their individual needs. The VISN purchase
of 114 BCMA Carts has a projected award date to the Vendor of 6/6/2014 and delivery
is expected to be complete within 120 days of award. The Atlanta purchase of
77 BCMA Carts was awarded on 4/22/2014 and delivery is expected to be complete
within 120 days of award.

Target Date: September 30, 2014

BCMA Refresh: VISN Chief Logistics Officer (CLO), working with VISN Contracting
Officer and VISN Chief Information Officer (CIO) developed a plan to perform a
complete refresh of BCMA carts VISN wide beginning in FY15. The work to identify the
current number of BCMA carts in play, determine current and future real need of BCMA
carts, establish a refresh cycle and determine needed funding was being actively
pursued also in early 2014 (Q2). This plan will be implemented effective October 2014
(FY15). VISN7 currently has a total of 672 BCMA Carts, 625 of those cart are more
than three years old. Based upon equipment condition and projected three year life
expectancy, VISN 7 will refresh approximately 225 of its BCMA Carts each fiscal year.
VISN 7 will have a Refresh Plan developed and ready for implementation.




VA Office of Inspector General                                                                          10
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA
                                                                                              Appendix B
                           Facility Director Comments


            Department of
            Veterans Affairs                                      Memorandum

     Date: 	June 6, 2014

     From: 	Director, Atlanta VA Medical Center (508/00)

      Subj: 	Draft Report—Healthcare Inspection—Alleged Medication Cart
             Deficiencies and Unsafe Medication Administration Practices, Atlanta
             VA Medical Center, Decatur, GA

        To: Director, VA Southeast Network (10N7)


        1. I concur with the findings and recommendations of the Office of
           Inspector General Medication Cart Deficiencies and Unsafe Medication
           Administration Practices Review at the Atlanta VA Medical Center,
           Decatur, GA.

        2. Thank you for the opportunity to review the draft report. Attached are
           the facility actions taken as a result of these findings.



            (original signed by:)

            Leslie Wiggins

            Director, Atlanta VA Medical Center (508/00) 





VA Office of Inspector General                                                                          11
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



                         Comments to OIG’s Report
The following Facility Director’s comments are submitted in response to the
recommendations in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director ensure that an
adequate number of fully functioning medication carts are available for nurses to
administer medications safely and on time.

Concur

Target date for completion: September 30, 2014

Facility response: A VISN wide support algorithm has been implemented delineating
roles and responsibilities for the support of the BCMA carts to include defined
performance standards, turn-around times and escalation provisions. All BCMA cart
faults are reported to the 24 hour IT help desk by end users to generate a help desk
ticket for tracking. If not immediately resolved by the help desk, the ticket will be
tracked to completion by OIT.

An acquisition contract for 77 new BCMA carts has been awarded for a complete facility
cart refresh with an estimated delivery before the end of FY2014. New carts have a
3 year warranty, an evaluation for funding appropriations will be submitted for repair or
replacement.

A minimum number of carts have been defined to maintain patient care and efficiency
for medication administration. Floors have been supplied with the optimal number of
carts in addition to a back up cart for immediate deployment should a cart fail. OIT will
also maintain a stock of loaner carts for deployment to the patient care areas in the
event a cart has to be removed from service for repairs.

In addition, an Atlanta VA Bar Code Medication Administration Management SharePoint
has been created to maintain an inventory of all carts to include a “Dashboard” view of
each cart's status, repair plan, incident tracking and related quality reports.

Recommendation 2. We recommended that the Facility Director ensure that nurses
document the reasons for late medication administration.

Concur

Target date for completion: September 30, 2014

Facility response: The Atlanta VA Medical Center is currently revising the Medication
Administration policy to specify documentation of late medications. Staff will be
educated on policy revisions. In addition, all staff will receive annual training on



VA Office of Inspector General                                                                          12
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA



documentation of late medication administration. The BCMA Coordinator will monitor
compliance through BCMA Reports.




VA Office of Inspector General                                                                          13
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA
                                                                                              Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Joanne Wasko, LCSW, Team Leader
                         Victoria Coates, LICSW, MBA
                         Marci Davis, MBA, MPA
                         Lesa Gann, RN, LCSW
                         Jerome Herbers, MD
                         Jamilla Mallory, MBA
                         Leon Roberts, MBA
                         Mike Schiltz, MBA
                         Al Tate, MBA
                         Briana Webster, BS 

                         Toni Woodard, BS 





VA Office of Inspector General                                                                          14
 Alleged Medication Cart Deficiencies/Unsafe Medication Administration Practices, Atlanta VAMC, Decatur, GA
                                                                                              Appendix D

                                    Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Atlanta VA Medical Center (508/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Johnny Isakson
U.S. House of Representatives: Paul C. Broun; Doug Collins, Phil Gingrey;
 Henry C. “Hank” Johnson, Jr.; John Lewis; Tom Price; Austin Scott; David Scott;
 Lynn A. Westmoreland; Robert Woodall



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                          15
